CERTIFICATE OF SERVICE
No. TBD
Sandra G. Hale
Petitioner(s)
v.
USA et al.
Respondents)

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the SANDRA
G. Hale Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel Francisco
Solicitor General of the U.S.
Department of Justice
950 Pennsylvania Ave NW, Rm. 5614
Washington, DC 20530-0001
(202)514-2203
SupremeCtBriefs@USDOJ.gov
Counsel for United States ofAmerica

Lucas'fieDeus

October 25, 2019
SCP Tracking: Hale-2318 Autumn Springs Lane-Cover White

